<html>
<title> - AGENT ORANGE IN VIETNAM: RECENT DEVELOPMENTS IN REMEDIATION</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
      AGENT ORANGE IN VIETNAM: RECENT DEVELOPMENTS IN REMEDIATION

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON ASIA, THE PACIFIC AND
                         THE GLOBAL ENVIRONMENT

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 15, 2010

                               __________

                           Serial No. 111-125

                               __________

        Printed for the use of the Committee on Foreign Affairs


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______



                  U.S. GOVERNMENT PRINTING OFFICE
57-498                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0760776847647274736f626b772964686a29">[email&#160;protected]</a>  

                      COMMITTEE ON FOREIGN AFFAIRS

                 HOWARD L. BERMAN, California, Chairman
GARY L. ACKERMAN, New York           ILEANA ROS-LEHTINEN, Florida
ENI F.H. FALEOMAVAEGA, American      CHRISTOPHER H. SMITH, New Jersey
    Samoa                            DAN BURTON, Indiana
DONALD M. PAYNE, New Jersey          ELTON GALLEGLY, California
BRAD SHERMAN, California             DANA ROHRABACHER, California
ELIOT L. ENGEL, New York             DONALD A. MANZULLO, Illinois
BILL DELAHUNT, Massachusetts         EDWARD R. ROYCE, California
GREGORY W. MEEKS, New York           RON PAUL, Texas
DIANE E. WATSON, California          JEFF FLAKE, Arizona
RUSS CARNAHAN, Missouri              MIKE PENCE, Indiana
ALBIO SIRES, New Jersey              JOE WILSON, South Carolina
GERALD E. CONNOLLY, Virginia         JOHN BOOZMAN, Arkansas
MICHAEL E. McMAHON, New York         J. GRESHAM BARRETT, South Carolina
THEODORE E. DEUTCH,                  CONNIE MACK, Florida
    Florida<greek-l>As of 5/6/       JEFF FORTENBERRY, Nebraska
    10 deg.                          MICHAEL T. McCAUL, Texas
JOHN S. TANNER, Tennessee            TED POE, Texas
GENE GREEN, Texas                    BOB INGLIS, South Carolina
LYNN WOOLSEY, California             GUS BILIRAKIS, Florida
SHEILA JACKSON LEE, Texas
BARBARA LEE, California
SHELLEY BERKLEY, Nevada
JOSEPH CROWLEY, New York
MIKE ROSS, Arkansas
BRAD MILLER, North Carolina
DAVID SCOTT, Georgia
JIM COSTA, California
KEITH ELLISON, Minnesota
GABRIELLE GIFFORDS, Arizona
RON KLEIN, Florida
                   Richard J. Kessler, Staff Director
                Yleem Poblete, Republican Staff Director
                                 ------                                

      Subcommittee on Asia, the Pacific and the Global Environment

            ENI F.H. FALEOMAVAEGA, American Samoa, Chairman
GARY L. ACKERMAN, New York           DONALD A. MANZULLO, Illinois
DIANE E. WATSON, California          BOB INGLIS, South Carolina
MIKE ROSS, Arkansas                  DANA ROHRABACHER, California
BRAD SHERMAN, California             EDWARD R. ROYCE, California
ELIOT L. ENGEL, New York             JEFF FLAKE, Arizona
GREGORY W. MEEKS, New York


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Matthew Palmer, Acting Deputy Assistant Secretary, Bureau of 
  East Asian and Pacific Affairs, U.S. Department of State.......     8
John Wilson, Ph.D., Director, Office of Technical Support, 
  Bureaus for Asia and the Middle East, U.S. Agency for 
  International Development......................................    16
Nguyen Thi Ngoc Phuong, M.D., Director General, Ngoc Tam 
  Hospital, Ho Chi Minh City, Vietnam (Former Vice Speaker of the 
  Vietnam National Assembly; presently Member of the U.S.-Vietnam 
  Dialogue Group on Agent Orange/Dioxin).........................    39
Ms. Tran Thi Hoan, Agent Orange Victim...........................    46

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Eni F.H. Faleomavaega, a Representative in Congress 
  from American Samoa, and Chairman, Subcommittee on Asia, the 
  Pacific and the Global Environment: Prepared statement.........     6
Mr. Matthew Palmer: Prepared statement...........................    12
John Wilson, Ph.D.: Prepared statement...........................    18
The Honorable Diane E. Watson, a Representative in Congress from 
  the State of California: Prepared statement....................    38
Nguyen Thi Ngoc Phuong, M.D.: Prepared statement.................    42
Ms. Tran Thi Hoan: Prepared statement............................    49

                                APPENDIX

Hearing notice...................................................    60
Hearing minutes..................................................    61
The Honorable Eni F.H. Faleomavaega: Material submitted for the 
  record.........................................................    62


      AGENT ORANGE IN VIETNAM: RECENT DEVELOPMENTS IN REMEDIATION

                              ----------                              


                        THURSDAY, JULY 15, 2010

              House of Representatives,    
              Subcommittee on Asia, the Pacific    
                            and the Global Environment,    
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:15 p.m., in 
room 2172, Rayburn House Office Building, Hon. Eni F.H. 
Faleomavaega (chairman of the subcommittee) presiding.
    Mr. Faleomavaega. The subcommittee hearing will come to 
order.
    This is a hearing of the Foreign Affairs Subcommittee on 
Asia, the Pacific and the Global Environment. A theme of 
today's hearing that will be brought forth by our witnesses 
concerns the use of Agent Orange in Vietnam and recent 
developments in remediation.
    I want to offer my apologies to our witnesses for being a 
little late because of the votes that have just been completed 
in the House. I hope you are not being misled by the fact that 
I am the only member here because this is the nature of the 
work here. Members go in and out because of other commitments 
and other meetings, but I am sure that some of our colleagues 
will be coming in quite soon.
    So what I will do is begin the hearing by giving my opening 
statement, and we will then turn to our witnesses who are now 
before us.
    Last night, we celebrated 15 years of U.S.-Vietnam 
diplomatic relations, and I joined former President Bill 
Clinton, Senator John Kerry, and Senator John McCain in 
offering remarks at an event hosted by His Excellency, the 
Ambassador of Vietnam Le Cong Phung and his dear wife, as well 
as Assistant Secretary of State Kurt Campbell, and the State 
Department as they co-hosted the special event that took place 
last night. While this is a hallmark moment in U.S.-Vietnam 
relations, true normalization will not be achieved, in my 
humble opinion, until the Agent Orange issue has been 
addressed.
    Between 1961 and 1971, the U.S. military sprayed an 
estimated 11-12 million gallons of Agent Orange chemical 
substance over approximately 10 percent of Vietnam. Some 30 
years later we have not cleaned up the mess that we have left 
behind. It is my sincere hope that we will come together and 
agree on a way to make this matter right.
    This hearing is the third in a series that I have held 
since becoming chairman of this subcommittee.
    As a Vietnam veteran and an Asian-Pacific American, I am 
deeply committed to doing all I can to help the victims of 
Agent Orange because, like the people of Vietnam, our people in 
the Pacific suffer the lingering effects of genetic 
abnormalities that have resulted from the legacies of war.
    Specifically, from 1946 to 1958, the United States 
conducted 67 nuclear tests in the Marshall Islands with an 
equivalent yield of more than 7,000 Hiroshima bombs. To put it 
another way, the equivalent of 1.6 Hiroshima bombs was dropped 
on the Marshall Islands every day for a 12-day period. In fact, 
the nuclear test, code named Bravo, was a 15-megaton hydrogen 
bomb, the first of its kind, detonated on March 1, 1954. It was 
equivalent to 1,300 Hiroshima bombs that were dropped in Japan 
during World War II. This explosion was acknowledged as the 
greatest nuclear explosion ever detonated. The Bravo test 
vaporized six islands and created a mushroom cloud 25 miles in 
diameter.
    Because people were living on these Pacific Islands during 
the time of the U.S. nuclear testing program, people of the 
Republic of the Marshall Islands were also exposed to severe 
radiation poisoning. Even today, 64 years since the nuclear 
testing program that our Government conducted in the Marshall 
Islands, people from the Island of Rongelap are still exiled 
from their own island due to the radioactive fallout. Many 
women still give birth to what some people call ``Jelly 
Babies''--deformed babies who are born with no bones, no eyes, 
no heads and no limbs. They are very similar to the victims 
exposed to dioxin, a chemical substance in the Agent Orange we 
used in operations in Vietnam.
    While the Vietnam situation is different, in some ways it 
is also the same. During the Vietnam War, innocent civilians 
were exposed to dioxin, a toxic contaminant known to be one of 
the deadliest chemicals made by man. Dioxin was an unwanted 
byproduct, but it is thought to be responsible for most of the 
medical problems associated with exposure to Agent Orange.
    Just as the U.S. Government has questioned the Marshall 
Islands' assertions about the extent of environmental and 
health problems associated with nuclear radiation, the United 
States has denied any legal liability and questioned Vietnam's 
assertions about the problems associated with Agent Orange. But 
if you visit Tu-Du Hospital in Ho Chi Minh City and review the 
scientific evidence as well as the testimony of Dr. Nguyen Thi 
Ngoc Phuong, head of the women's health department at Ho Chi 
Minh's University Medical Center, you will come to know that we 
can and should do more to help the Vietnamese victims of Agent 
Orange, just as we did for our own soldiers exposed to Agent 
Orange during the 10-year <greek-l>year  deg.period when we 
used this so-called ``herbicide'' at the time in the war.
    So far, the United States appropriated $3 million in 2007 
and $6 million in 2009, and a $12 million request has been made 
for Fiscal Year 2010. But this is pittance as far as I am 
concerned. Moreover, the greater portion of these appropriated 
funds has been used for environmental remediation, rather than 
for assistance for the victims.
    Today, for the first time in the history of the U.S. 
Congress, a Vietnamese Agent Orange victim will testify and 
share with us her story. Hers is like the story is like the 
story of many of our own U.S. veterans who were also exposed 
and yet had to fight and continue to fight for assistance from 
our own Government.
    As I have said many times before, after every war America 
has always made a commitment to help the affected countries 
rebuild. According to the Congressional Research Service, after 
Japan attacked the United States, U.S. assistance to Japan from 
1945 to 1952 amounted to about $15.2 billion in 2005 dollars. 
In Germany, from 1946 to 1952, the United States provided a 
total of $29.3 billion in 2005 dollars. And from 2003 to 2006, 
the U.S. appropriated $35.7 billion for Iraq's reconstruction.
    Why aren't we helping Vietnam more? Perhaps the Acting 
Deputy Assistant Secretary for the Bureau of East Asian and 
Pacific Affairs from the Department of State, and Mr. John 
Wilson, the Director of the Office of Technical Support for the 
Bureaus of Asia and the Middle East of USAID, will shed some 
light on recent developments on remediation.
    At this time, I would like to offer my deepest condolences 
to the families of those USAID workers who were recently killed 
in Afghanistan. These individuals worked tirelessly in a 
dangerous place in order to improve the lives of the Afghan 
people. It is shameful that terrorists took their lives. In 
this life or in the next, my sincere hope is that justice will 
be served.
    Before we receive other opening statements, I want to 
welcome Dr. Phuong. Dr. Phuong, are you here? Dr. Phuong is the 
former Vice Speaker of the Vietnam National Assembly, currently 
a member of the U.S.-Vietnam Dialogue Group. Ms. Hoan is a 
victim of Agent Orange. Both have traveled from Vietnam to 
testify at this hearing.
    What you may not know is that the U.S. Government does not 
pay for witnesses to travel or testify before Congress. 
Witnesses must pay their own travel expenses, and this has not 
been easy for our Vietnamese friends and witnesses. They have 
traveled at considerable expense and sacrifice, and I thank 
them for being here. Their presence highlights the importance 
of this issue to the people and Government of Vietnam, just as 
it is important to the people of our own country, especially to 
our veterans who were exposed to Agent Orange.
    The sad commentary about this is that it took so many years 
for our own Government to admit that because of the exposure of 
our soldiers and our military men and women in uniform, only 
just recently has the U.S. Government begun to accept the fact 
that our own soldiers were also exposed and severely affected 
health-wise just as the people of Vietnam were also exposed to 
this tragic situation.
    I want to say that I don't glory myself in saying that 
because I served in Vietnam I am some kind of a hero. No, I was 
just one of the 500,000 grunts that were there because Uncle 
Sam said to go there and serve and defend this country. I would 
venture to say that 99 percent of the American people never 
realized the complexity of the situation in Vietnam or the 
historical events and situation affecting the people of this 
region of the world that we know very little about.
    For some 100 years, Vietnam was colonized and exploited by 
the French. During President Dwight Eisenhower's 
administration, the French Government requested American 
military assistance to fight the Vietnamese who, under the 
leadership of Ho Chi Minh, were simply struggling for their 
independence from French colonial rule. I would say 99 percent 
of the American people never knew that this is what was going 
on in Asia and this part of the world. In fact, it is my 
understanding that President Eisenhower refused to help the 
French in Vietnam for the simple reason that the French 
exploitation and colonial policies of Vietnam, as well as Laos 
and Cambodia, went against the ideals upon which this country 
was founded as a former colony of the British Empire.
    Subsequently, in 1954, long before American intervention in 
Vietnam, Ho Chi Minh led his people to fight against French 
colonialism, in the famous battle of Dien Bien Phu. Ho Chi Minh 
simply wanted to get rid of 100 years of French colonialism and 
establish a better life for his own people. Regrettably, from 
the time when the U.S. entered the fray in 1955 until the Nixon 
administration withdrew U.S. troops in 1975, millions of U.S. 
troops served in Vietnam and more than 58,000 killed. Three to 
four million Vietnamese were also killed, as were 1.5-2 million 
Laotians and Cambodians. For what, we ask?
    As a result of this horrific war, the U.S.-Vietnam 
diplomatic and economic relationship was severed for more than 
20 years following North Vietnam's victory in 1975. President 
Bill Clinton finally announced the normalization of diplomatic 
relations with Vietnam on July 11, 1995. Prior to this, 
President Clinton had announced the end of the U.S. trade 
embargo in 1994; 2 months later the U.S. Congress passed a 
Foreign Relations Authorization Act containing a sense of the 
Senate resolution expressing the Chamber's support for 
normalization of relations with Vietnam.
    In 1997, President Clinton appointed the first post-war 
Ambassador to Vietnam. He also signed the landmark U.S.-Vietnam 
bilateral trade agreement in 2000. I might note that my former 
colleague who also served as a member of this committee, 
Congressman Pete Peterson, a former prisoner of war, was 
appointed U.S. Ambassador to Vietnam at that time. Vietnam did 
its part, proving cooperative with POW and MIA refugee issues 
and moving forward in ongoing reform efforts.
    We applaud former President Clinton for his visionary 
leadership which has led to this moment, and I also commend 
Ambassador Le Cong Phung for the tremendous service that he has 
given to his country as Ambassador to our country. And I would 
be remiss if I did not mention again the names of Senators John 
McCain and also Senator Kerry for their willingness to take up 
the leadership and commitment despite the horrific effects of 
the war that affected them physically and mentally in every 
way. But these men stood their ground in saying it was time for 
us to put things in the past and look at things in the forward 
and reestablish normal relations with the people of Vietnam.
    I made a comment last night at the event that I am sure 
President Clinton must have thought very hard about how so many 
bitter memories of veterans have come back from war. Many could 
never forgive whatever happens. You can talk about atrocities, 
but I don't think you can say that one side ever could declare 
themselves to be angels in this regard. But I must say that 
these two gentlemen, Senator McCain and Senator Kerry, ought to 
be given every credit for their willingness to step up and do 
what was right, and that was to push for normalized relations 
with the Republic of Vietnam. I say if it was possible after 
fighting a bitter war in World War II with Japan, against Japan 
and against Germany, then certainly it is possible that we can 
do the same thing with the people of Vietnam.
    Today, economic ties are the most mature aspect of our 
bilateral relationship. It is about a $15 billion trade right 
now from last year, 10 times over 10 years ago, but I do 
believe that we can do better. With all the harm that has been 
done, Isincerely hope--I don't know where this is going to take 
us. Some people have asked me, why are you doing this? I want 
to say with the deepest regret that one of the great supporters 
of this effort to build a record and to say before the American 
people that we have done something here that we need to 
correct, my dear friend, the late Congressman and chairman of 
the House Appropriations Subcommittee on Defense, Jack Murtha, 
was also willing to give his support when I was in the process 
of building this record, this being the third now of a series 
of holding these hearings, in the process hopefully that we 
will establish better reasons to justify why we need to have 
U.S. commitment to give more assistance on this tragic event.
    I now have with us two distinguished gentlemen of our 
administration, the State Department, here with us to testify. 
Mr. Matthew Palmer, a career member of the Foreign Service, 
Deputy Assistant Secretary for Southeast Asia, with the Bureau 
of East Asian and Pacific Affairs. Prior to that assignment, 
Mr. Palmer was the Director of the Southern Caucasus, the 
Aegean and Nordic Affairs at the National Security Council. His 
previous assignments in Washington include 3 years on the 
Secretary's Policy Planning staff in Yugoslavia. My gosh, you 
were in Europe and now you are in Asia. How do you become an 
expert overnight like this, Mr. Palmer?
    Mr. Palmer is a member of the Council on Foreign Relations, 
did his graduate studies at Wesleyan University, and also has a 
master's from the University of Michigan. He is fluent in 
Japanese, Serbian, and Greek. I'm sure that really helps you a 
lot in Asia--to speak Greek. But I do want to welcome you, Mr. 
Palmer.
    We also have with us Dr. John Wilson. Dr. Wilson is the 
director of the Office of Technical Support in the Asia and 
Middle East Bureau of USAID. Dr. Wilson joined USAID in and has 
been with the Asia and Middle East Bureaus since 1997. In his 
career, Dr. Wilson has been responsible for providing technical 
leadership in developing and implementing agency environmental 
policies and programs. He is an expert on environmental 
planning and management. Dr. Wilson also served as chairperson 
of the Tropical Ecosystems Directorate of the U.S. Man and 
Biosphere Program--boy, that is a real mouthful there. Prior to 
joining USAID, Dr. Wilson was an American Association for the 
Advancement of Science diplomacy fellow. He also is a graduate 
of Harvard University and received his doctorate in marine 
ecology from Boston University.
    Gentlemen, I welcome you both here this afternoon and would 
like to ask Mr. Palmer for his testimony. Please proceed.
    [The prepared statement of Mr. Faleomavaega follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

   STATEMENT OF MR. MATTHEW PALMER, ACTING DEPUTY ASSISTANT 
   SECRETARY, BUREAU OF EAST ASIAN AND PACIFIC AFFAIRS, U.S. 
                      DEPARTMENT OF STATE

    Mr. Palmer. Chairman Faleomavaega and members of the 
subcommittee, thank you for inviting me to testify today on the 
topic of U.S. engagement with Vietnam on issues related to 
Agent Orange.
    It is important to place U.S.-Vietnam cooperation on the 
complex and challenging issues surrounding Agent Orange in the 
context of progress in our overall bilateral relationship. This 
here marks the 15th anniversary of our diplomatic relationship 
with Vietnam. Over this short period, U.S.-Vietnam cooperation 
has steadily matured into a robust, bilateral relationship 
characterized by mutual respect and shared interests. We 
continue to make progress on a growing range of issues, from 
trade liberalization, health environment, to education, nuclear 
safety, and security. Our strong collaboration on these issues 
has created a positive environment that has allowed frank 
discussions of matters on which we do not agree, such as human 
rights.
    USAID-Vietnam works in close partnership with the 
Vietnamese Government and with our colleagues in the 
Departments of Defense and Health and Human Services and in the 
Environmental Protection Agency to implement a broad foreign 
assistance program. As part of that program, USAID has provided 
over $330 million in the last 10 years. This assistance 
includes development objectives such as economic reform and 
good governance, as well as programs to address genuine 
humanitarian needs, including HIV/AIDS treatment and 
prevention, and aid to people with disabilities regardless of 
cause.
    Before I turn to our cooperation on Agent Orange, it is 
also important to note the significant strides we have made in 
addressing other war legacy issues through our joint 
collaboration with the Government of Vietnam. Thanks to a 
sustained bilateral effort, we have succeeded in recovering and 
accounting for the remains of 660 Americans lost during the 
Vietnam conflict.
    We also continue to make progress toward clearing 
unexploded ordinance. Since 1989, the United States, through 
the State Department, has provided over $37 million in a broad 
spectrum of programs not only to locate, remove and destroy 
unexploded ordinance, or UXO, land mines and other explosive 
materials, but also to address the effects of UXO on the health 
and livelihood of Vietnamese living in affected areas.
    While our bilateral cooperation with the Government of 
Vietnam accounting for Americans missing from the war began 
more than 20 years, and on UXO issues 15 years ago, cooperation 
on Agent Orange and its contaminant, dioxin, took longer to 
begin. However, since 2001, our two governments have worked to 
address potential environmental and health issues related to 
Agent Orange and dioxin.
    After several years of information sharing and capacity 
building, in 2006 experts from the two nations attended the 
first meeting of the Joint Advisory Committee on Agent Orange/
dioxin, the JAC. The JAC was convened to coordinate joint 
research and provides technical advice to policymakers to help 
develop environmental and health initiatives. The fifth annual 
JAC just concluded this month in Hanoi. I am pleased to report 
that in December 2009, the U.S. Government and Vietnam's 
Ministry of Natural Resources and the Environment signed a 
Memorandum of Understanding on Agent Orange, formalizing years 
of cooperation and marking a new level of commitment to 
resolving this issue. The document serves as the framework for 
future cooperation on environmental health and remediation 
research activities and ensures that U.S. activities align with 
Vietnamese priorities.
    Both the United States and Vietnam agree that the health of 
the Vietnamese people and the safety of its environment will be 
vital for Vietnam's future. In the spirit of humanitarian 
concern, we have provided more than $46 million in assistance 
for all Vietnamese living with disabilities without regard to 
cause, including nearly $25 million from the Leahy War Victims 
Fund. We have also expanded disability assistance in the 
communities surrounding the Da Nang Airport.
    With funding from the Fiscal Year 2007 and Fiscal Year 2009 
appropriations, USAID is nearing the completion of the second 
year of separate 3-year cooperative agreements with Save the 
Children, East Meets West Foundation, and Vietnam Assistance to 
the Handicapped. These organizations are providing services 
such as skills training, medical support, and employment 
assistance to people with disabilities in Da Nang. In addition, 
with Ford Foundation support, several experts from the Centers 
for Disease Control and Prevention just completed a workshop 
with their Vietnamese counterparts to facilitate the early 
identification of children at risk for developmental 
disabilities and to improve birth defect and chronic disease 
surveillance systems. These projects aim to expand the scope of 
health assistance beyond support for people with disabilities 
toward the goal of reducing the overall disability burden in 
Vietnam.
    The United States also recognizes the importance of 
remediation at hotspots, the former air bases where dioxin 
contamination exceeds international safety standards. Building 
on past containment efforts, we now are collaborating to 
eliminate the potential for dioxin exposure at the Da Nang 
Airport. Our activities complement the efforts of a broad 
coalition. The Government of Vietnam, the United Nations 
Development Program, the Ford Foundation, and others, are 
committing substantial resources to dioxin remediation 
throughout the country. UNDP and the Government of Vietnam have 
just signed an agreement for $5 million to support dioxin 
remediation at dioxin hotspots, with an initial focus at Bien 
Hoa, a project specifically promoted by UNDP to compliment U.S. 
efforts.
    As requested by the Government of Vietnam and as reviewed 
scientifically by the bilateral multi-agency Joint Advisory 
Committee on Agent Orange, the United States is focusing its 
remediation efforts on Da Nang Airport. Thoughwe share the 
desire to implement remediation as soon as possible, our 
overriding goal is to complete dioxin destruction that ensures 
worker safety, permanently removes potential exposure to Da 
Nang residents, and fully complies with U.S. and Vietnamese 
law. We are moving as fast as possible to do this, but we want 
to make sure that we pay attention to the details and get this 
right.
    Last year, we reported to this committee on the beginning 
stages of a remediation project, the U.S. plan for Da Nang. I 
am pleased to note that we have made great progress toward our 
remediation goals. Working with the Ford Foundation, the EAP 
and the Vietnam Academy of Science and Technology are jointly 
piloting innovative bioremediation technology at Da Nang 
Airport. At the same time, in close consultation with the 
Government of Vietnam and consistent with U.S. and Vietnamese 
legal requirements, a USAID contractor is finalizing an 
environmental assessment for dioxin remediation at Da Nang and 
expects to begin developing engineering and design plans for 
the technology selected through the assessment process in 
August of this year.
    Vietnamese efforts to expand the Da Nang Airport highlight 
the need to move as quickly as possible. Ongoing construction 
has already displaced contaminated soil and sediment, posing 
risks to human health in the surrounding area. In consultation 
with central authorities and airport officials, we have 
developed a remediation plan that USAID estimates can be shovel 
ready in early 2011, consistent with airport expansion plans, 
and could be completed by 2013 subject to availability of 
resources.
    The complete and permanent elimination of dioxin 
contamination from Da Nang due to Agent Orange would represent 
the most significant action we can take to alleviate the 
environmental concerns and possible health impacts to Da Nang 
and offer resolution to one of the Government of Vietnam's high 
priority concerns. It could also provide a model for moving 
ahead with remediation at other dioxin hotspots.
    USAID estimates at least $34 million in project costs is 
required to complete this remediation. The State Department and 
USAID have identified approximately $4.9 million for this 
project from the Fiscal Year 2010 appropriation, $3 million in 
economic support funds, and $1.9 million in development 
assistance funds. Additionally, the Fiscal Year 2011 budget 
request also includes some resources for these activities.
    Over the last several years, the United States has worked 
with Vietnam to ensure that our Agent Orange activities align 
with Vietnamese health and environmental objectives. This 
cooperation has brought us closer than ever to the permanent 
elimination of dioxin at Da Nang Airport due to Agent Orange 
and has allowed us to provide much-needed assistance to 
vulnerable populations.
    Agent Orange has long been a sensitive topic in U.S.-
Vietnam relations, and we have had some past challenges 
reaching agreement on how and where to cooperate, but we are 
now transforming dialogue into tangible improvements in the 
environment and health of the people of Vietnam. The United 
States Government has demonstrated a firm commitment on working 
to find a resolution to this lingering concern and to ensuring 
the continued improvement of U.S.-Vietnam relations.
    Thank you for giving me the opportunity to appear before 
you today. I welcome your questions.
    [The prepared statement of Mr. Palmer follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Faleomavaega. Thank you, Mr. Palmer and Dr. Wilson, for 
your testimony.

STATEMENT OF JOHN WILSON, PH.D., DIRECTOR, OFFICE OF TECHNICAL 
SUPPORT, BUREAUS FOR ASIA AND THE MIDDLE EAST, U.S. AGENCY FOR 
                   INTERNATIONAL DEVELOPMENT

    Mr. Wilson. Chairman Faleomavaega, Ranking Member Manzullo, 
and members of the subcommittee, thank you for inviting me 
today to report on recent developments in remediation of Agent 
Orange in Vietnam. I will summarize my written statement and 
ask that it be submitted for the record.
    The United States recognizes the importance of dioxin 
remediation at hotspots in Vietnam. Dioxin contamination has 
been of longstanding concern to both countries, and the issue 
has at times strained our bilateral relationship.
    As the lead agency responsible for dioxin remediation, 
USAID is working collaboratively with our colleagues at the 
State Department and the Environmental Protection Agency to 
eliminate the potential for dioxin exposure at the Da Nang 
Airport.
    As the environmental officer for the Asia and Middle East 
Bureaus, I am responsible for overseeing compliance with 
USAID's environmental procedures. Last fall, I led the team 
that initiated the environmental assessment for dioxin 
remediation at Da Nang Airport. My doctorate in ecology and 
geochemistry also puts me in a strong position to review the 
science behind the assessment and determine the preferred 
alternative for environmental remediation at Da Nang.
    My written statement describes in some detail USAID's plans 
to implement the remediation effort. I won't review all of that 
now in the interest of time. I also won't review the state of 
U.S.-Vietnam cooperation since my colleague from the State 
Department has just done so, though I would also underscore the 
importance of the collaborative effort on dioxin remediation 
between the United States and the Government of Vietnam. It is 
the reason that we are able to move forward on this proposal.
    I would like to briefly describe the situation on the 
ground and the next steps for implementing USAID's remediation 
program.
    Testing has shown that dioxin contamination in soils at Da 
Nang, Bien Hoa and Phu Cat exceeds international standards. As 
requested by the Government of Vietnam, the United States is 
providing assistance in Da Nang to remediate dioxin-
contaminated soil and provide humanitarian support for 
Vietnamese residents.
    Mr. Chairman, Da Nang is the third largest city in Vietnam 
and it is rapidly growing. The airport is located in Da Nang 
City within a densely populated urban area. It is a busy 
international airport, which the Government of Vietnam is 
expanding to accommodate increased traffic. For the remediation 
effort, the airport expansion is an important factor because 
the dioxin hotspot sites are in the path of the construction, 
and in some places within meters of residential areas.
    The environmental assessment, which I recently approved, 
evaluated alternatives for addressing the remediation at Da 
Nang. We looked at three approaches and selected as the 
preferred alternative in-situ/in-pile thermal desorption and 
destruction of dioxin. Thermal desorption is an innovative 
dioxin-destruction technology and the only technology option 
that has been proven to destroy dioxin to levels that meet both 
soil and sediment national dioxin standards in Vietnam. The 
costs associated with this approach are similar to other 
alternatives. This option will result in the least exposure to 
residents and will also provide a permanent remedy.
    Given the extent of contamination, the imminent airport 
construction plans, and the potential threat to the local 
population, it is important that we act now to remediate dioxin 
at Da Nang Airport to ensure that airport construction work 
does not increase exposure to dioxin for area residents and 
travelers.
    USAID is wrapping up the design phase of the dioxin 
remediation program. With the selection of the dioxin treatment 
alternative, we are proceeding with the engineering design for 
thermal desorption and destruction. We expect to complete the 
final design this fall. We estimate that the final phase of 
this project will cost approximately $34 million. Subject to 
funding availability, USAID could begin the work on dioxin 
remediation as early as spring 2011, and complete the work 
within 2 years. Our remediation work will help close a 
difficult chapter in U.S.-Vietnam relations and ensure a better 
environment for the Vietnamese people.
    The elimination of dioxin in the soils and sediment at Da 
Nang will permanently resolve one of the Government of 
Vietnam's lingering concerns about contamination associated 
with Agent Orange and demonstrate, tangibly, the United States' 
commitment to the continued improvement of U.S.-Vietnam 
relations.
    Mr. Chairman, I am pleased to be able to report today on 
the progress USAID has made toward implementation of the dioxin 
remediation program. Thank you for this opportunity to appear 
before you today. I will be happy to take your questions.
    [The prepared statement of Mr. Wilson follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Faleomavaega. I want to thank you both, gentlemen, for 
your most precise statements.
    I do have a couple of questions, if I may, to follow up on 
some of the good indicators that I hear with such positive 
reaction to your sharing with us the developments in dealing 
with this.
    Mr. Palmer, you mentioned that this is the fifth annual JAC 
meeting that was held in Hanoi. Was this last year?
    Mr. Palmer. I believe the date of that meeting was 2010, 
but I need to double check that, sir.
    Mr. Faleomavaega. It doesn't have to be specific. I just 
wanted to get an idea. This is the fifth time that we have had 
annual meetings on this?
    Mr. Palmer. It is my understanding that--yes, it is the 
fifth, and it was just held in July.
    Mr. Faleomavaega. Do you think it might be the fifth and 
the last time that we might be meeting? I am just so encouraged 
by some of these decisions to appropriate $46 million here and 
$35 million there. This is big-time news, the first time that I 
hear in specific terms that we are focusing on the Agent Orange 
issue that we have been trying to address.
    You mentioned that the other important issue that caused 
both of our countries to work together was dealing with POWs 
and those missing in action, over which the Vietnamese 
Government was very cooperative and very much wanted to be as 
much help. Ironically, there are still 30,000 of our soldiers 
who have not been located from World War II, especially in 
Asia. But that is a pretty good record, the fact that of the 
2,000 missing and now to the point where we have been able to 
locate about another 600, as you had mentioned. Are we still 
looking for others? What are the statistics on those still 
missing in action so far? Have we developed a statistic on 
that?
    Mr. Palmer. Mr. Chairman, I don't have those numbers with 
me. I would have to check with my colleagues at the Department 
of Defense.
    Mr. Faleomavaega. I would appreciate it if you can submit 
that for the record. I want to know that.
    [The information referred to follows:]
  Written Response Received from Mr. Matthew Palmer to Question Asked 
       During the Hearing by the Honorable Eni F.H. Faleomavaega
    The Department of Defense, Prisoner of War/Missing Personnel Office 
has provided the following information:
    As of August 2, the most recent posting of numbers, there are 1,712 
Americans still unaccounted for from the Vietnam War.
    The breakdown by country is:

        <bullet>  Vietnam: 1,310 still unaccounted for/661 recovered 
        and identified

        <bullet>  Laos: 336 still unaccounted for/239 recovered and 
        identified

        <bullet>  Cambodia: 59 still unaccounted for/31 recovered and 
        identified

        <bullet>  China: 7 still unaccounted for/3 recovered and 
        identified

    Mr. Faleomavaega. How was it possible that when we 
conducted these spraying operations for some 10-year period, 
until 5 years later found out that this dioxin substance was 
discovered contained in Agent Orange? Were there other 
operations in previous wars where this substance was utilized 
as we did in Vietnam?
    Mr. Palmer. Again, Mr. Chairman, I need to refer that 
question to my colleagues at the Defense Department. I can 
check and get back to you.
    [The information referred to follows:]
  Written Response Received from Mr. Matthew Palmer to Question Asked 
       During the Hearing by the Honorable Eni F.H. Faleomavaega
    As then Secretary of Defense Cohen stated publicly in 1999, in the 
late 1960s Republic of Korea (ROK) troops sprayed Agent Orange in the 
area of the Demilitarized Zone. Agent Orange was not used in wars prior 
to the Vietnam War, the Department of Defense reports. According to a 
study of Agent Orange (Cecil PF (1986): Herbicidal Warfare: The RANCH 
HAND Project in Vietnam. Praeger Special Studies, Praeger Scientific, 
New York, NY) the United States Army Chemical Corps at Fort Detrick, 
Maryland, developed the formulation for Agent Orange in 1963. Following 
extensive evaluation, it was first deployed in Southern Vietnam on 
March 1, 1965.

    Mr. Faleomavaega. Yes, I would be interested. I am curious. 
The point I wanted to make is that I know we are very sensitive 
about chemical and biological substances that we have even 
participated in conventions and treaties to make sure that we 
do not use chemical and biological agents as much as we can 
discern, and yet in this specific instance where this very 
deadly substance, the dioxin, was used during the Vietnam War. 
I am just curious if we have used the same substance in some 
other conflicts. Have we ever had any previous experience to 
now coming to an understanding that we had used dioxin as part 
of our war effort in Vietnam? Were there other countries that 
were also exposed to this, whether it be during World War II or 
was this something that we just discovered in the 1960s?
    Mr. Palmer. Mr. Chairman, I have no information on that. I 
will address that question to my defense colleagues.
    [The information referred to follows:]
  Written Response Received from Mr. Matthew Palmer to Question Asked 
       During the Hearing by the Honorable Eni F.H. Faleomavaega
    As noted in response to the previous question, in the late 1960s 
ROK troops sprayed Agent Orange in the area of the Demilitarized Zone, 
as then Secretary of Defense Cohen stated publicly in 1999.
    Regarding Agent Orange in Vietnam, according to the Department of 
Defense, the United States did not know until late 1968 that Dioxin was 
a contaminant in Agent Orange. The United States subsequently 
restricted the use of Agent Orange near any populated areas. Once the 
science was clarified, the Department of Defense terminated all 
spraying of Agent Orange on 15 April 1970.
    The Department of Defense is currently reviewing a report covering 
allegations that veterans were exposed to Agent Orange in countries 
besides Vietnam. The report is expected to be released and briefed in 
September 2010. There are no known records, documents, or staff reports 
that show that Agent Orange or other tactical herbicides, were ever 
sprayed on military bases in countries where (and when) U.S. troops 
were located during the Vietnam War.

    Mr. Faleomavaega. I fully understand. I am not a doctor. I 
am not a scientist myself, but I am just curious and wanted to 
get a little more substance on this.
    Since your JAC meeting, have there been any estimates made 
on the number of Vietnamese victims who were exposed to Agent 
Orange?
    Mr. Palmer. The U.S. Government has no such estimates, sir. 
Our programming in Vietnam related to assistance to people with 
disabilities is for people regardless of cause. We do not ask 
people to prove what the source or cause for a particular 
disability is. So we have significant, robust assistance 
programs in Vietnam helping those who are disabled as a 
humanitarian concern, but we do not seek to identify the 
particular cause.
    Mr. Faleomavaega. I mean, we are spending $45 million, $46 
million, $25 million. At least we should know the numbers we 
are dealing with. I mean, is it two Vietnamese, or is it 3,000 
or 20,000 victims? I am a little surprised that for the annual 
meeting there hasn't been some kind of record keeping, at least 
by way of identifying how many victims there are.
    Mr. Palmer. I don't know that there is a scientific way to 
do that, Mr. Chairman. Birth defects are due to many factors, 
including malnutrition, inherited disorders, parental age, 
environmental and occupational exposures. These factors add to 
the complexity of linking any particular disease or disorder 
with dioxin alone. So through our efforts we are not attempting 
to do that, we are attempting, to the extent possible, to 
provide assistance to those in Vietnam with disabilities 
without asking for proof or evidence regarding the origins or 
source of that disability.
    Mr. Faleomavaega. How is it that we have established our 
national policy, especially for those of us who were there at 
the time when the Agent Orange was being utilized? I was there 
in 1967 and 1968, and our Government now says any of our 
soldiers who were in Vietnam during that 10-year period can 
apply and get some kind of a restitution or effort, even though 
you don't even have to prove that you may have been exposed to 
Agent Orange. Just the fact that you were in Vietnam is the 
trigger. I haven't even made an application for an Agent Orange 
benefit yet, so I have high blood pressure, I have all kinds of 
stuff that could all be related my service in Vietnam. But I 
just wanted to know, you are saying that you don't keep track 
of any of the records or studies. Is this one of the problems 
that we still have of not being able to specifically pinpoint 
the fact that these people ended up being disabled because of 
the Agent Orange/dioxin? You said there were other critical 
factors. I understand that.
    Mr. Palmer. Mr. Chairman, we do not believe that there is a 
scientific way in which to tell whether a particular disability 
or an individual suffering from a disability is suffering that 
disability as a consequence or a result of exposure to dioxin. 
As a consequence of that, our assistance efforts in Vietnam are 
very broad based. We provide assistance without regard to the 
cause of disability.
    We recognize and understand the burden that people with 
disabilities place on an under-resourced Vietnamese system, and 
we are doing what we can do provide assistance, but we are not, 
through our programming, seeking to differentiate between those 
who are suffering from exposure to dioxin and those who are 
not.
    Mr. Faleomavaega. Is our Government giving some kind of 
assistance for conducting laboratory research about dioxin and 
its effect on human beings? To what extent could this be one of 
the reasons why many Vietnamese babies end up being disabled 
and deformed?
    Mr. Palmer. If there is such a program, it is not a State 
Department program. I don't know if there are other scientific 
programs that may be funded through other institutions. I would 
also ask my USAID colleague if he is familiar with any such 
activities.
    Mr. Faleomavaega. So as far as the State Department is 
concerned, you are not in any way involved in any form of 
research to even find out a the connection? That is what I am 
trying to figure out, if there is a connection between dioxin 
and the Vietnamese people being what they are in terms of 
ending up being abnormal and deformed.
    Mr. Palmer. The programs that we support, Mr. Chairman, are 
to provide assistance to people with disabilities.
    Mr. Faleomavaega. And not just on Agent Orange?
    Mr. Palmer. Without regard to cause.
    Mr. Faleomavaega. Okay. Dr. Wilson.
    Mr. Wilson. I am unaware of any program such as you have 
just described, sir. I believe that we are providing support 
for laboratory equipment and testing on the presence of dioxin 
in soils so that we can proceed with the cleanup.
    Mr. Faleomavaega. What is your view of the fact that our 
policy toward all the veterans who served in Vietnam from 1961 
to 1971, our broad policy is the fact that they are entitled to 
some kind of benefit? The presumption is that they may have 
been exposed to Agent Orange. I guess that is quite a contrast 
from our policy toward the Vietnamese concerning this very 
issue.
    Mr. Palmer. I think it is a matter of effect, Mr. Chairman, 
that the programs that we have in Vietnam which don't seek to 
identify the origins or source of a disability provide 
assistance equally to all those who are dealing with these 
challenges.
    Mr. Faleomavaega. I am sorry. I just want to say that I 
want to recognize the presence of my dear friend and ranking 
member of our subcommittee, the gentleman from Illinois, Mr. 
Manzullo. And I would like to invite him to give his opening 
statement.
    Mr. Manzullo. Mr. Chairman, I don't have any questions. You 
have been asking the very questions that I would ask anyway, so 
I would give my time to you so you can finish up on your 
current thought.
    Mr. Faleomavaega. All right. I appreciate that. I 
appreciate that.
    I just want to be clear, do we have a policy toward Agent 
Orange? I mean, you are saying that whatever assistance you are 
giving Vietnam, Agent Orange really is not in there. I am a 
little fuzzy about this now. I thought that this JAC meeting 
that you have had for the fifth annual period now in Hanoi, 
that one of them was intended to address people with 
disabilities who were impacted or exposed to Agent Orange, 
specifically the dioxin chemical that I have just said is one 
of the deadliest chemicals that man has ever devised. If I am 
hearing correctly, you are saying that that really is not the 
basis of the assistance that we are giving Vietnam, that Agent 
Orange is not one of them. Please clarify that. I am not 
catching on here.
    Mr. Palmer. There are two prongs to the assistance efforts 
in Vietnam, Mr. Chairman. Together with our Vietnamese 
partners, we continue to refine a strategy to respond to 
environmental contamination and health concerns. As part of 
that strategy we are working on dioxin containment and 
remediation, improving the lives of people with disabilities 
and the development of programs to prevent birth defects in 
Vietnam.
    So on the one hand, we are providing assistance to those 
suffering from disabilities without regard to the source or 
cause of those disabilities, and on the other, we are working 
to contain and remediate dioxin hotspots in Vietnam.
    Mr. Faleomavaega. You mentioned Da Nang Airport as one of 
the hotspots where we are conducting these remediation 
projects. How big is Da Nang Airport?
    Mr. Palmer. How big is the area that----
    Mr. Faleomavaega. Yes, 200 acres, 3,000 acres? How big is 
Da Nang Airport?
    Mr. Palmer. Dr. Wilson, do you know the answer to that? I 
have to admit I am not sure.
    Mr. Wilson. I believe that it is about 20 acres that we are 
dealing with. It is a substantial amount of soil, but it is not 
that large an area at Da Nang Airport that we are going to be 
working on. There is a lake that has sediment that is 
contaminated that needs to be remediated, and there is a mixing 
and loading area that is also going to be remediated.
    Mr. Faleomavaega. Is Da Nang the only location where we 
stockpiled these chemical agents, or were there other places in 
Vietnam where we did this?
    Mr. Palmer. There were other places in Vietnam, Mr. 
Chairman, and there are other hotspots. We are beginning with 
Da Nang, and the hope is that success in Da Nang can serve as a 
model for remediation efforts in other hotspot areas.
    Mr. Faleomavaega. This being the fifth time that you have 
had this annual meeting, how many other hotspots do we have in 
Vietnam besides Da Nang?
    Mr. Palmer. I believe there are three major hotspots and a 
number of smaller areas of concern, on the order of 20 to 25.
    Mr. Faleomavaega. Dr. Wilson.
    Mr. Wilson. There are three known hotspots that the donors 
are working on. The United Nations Development Program has 
recently signed a grant for $5 million with the Government of 
Vietnam to work on the remediation of Bien Hoa, and Phu Cat has 
also been identified as a hotspot that needs to be remediated.
    Mr. Faleomavaega. I am still learning how to speak English. 
Can you elaborate when you say ``remediation?'' Are you going 
to clean up the soil or take the dioxin? What do you do, put it 
in milk or something? When you remediate something, what do you 
mean?
    Mr. Wilson. Mr. Chairman, we mean that in the case of Da 
Nang Airport we are going to destroy the dioxin through a 
thermal desorption and destruction----
    Mr. Faleomavaega. How do you destroy dioxin?
    Mr. Wilson. You destroy it, sir, by digging it up, putting 
it into a pile, heating that pile to 350 degrees centigrade and 
vaporizing and destroying the dioxin.
    Mr. Faleomavaega. Not 350 degrees Fahrenheit?
    Mr. Wilson. Not Fahrenheit, sir. Centigrade.
    Mr. Faleomavaega. Centrigrade?
    Mr. Wilson. Yes, it is hot.
    Mr. Faleomavaega. And what is the life span of the dioxin?
    Mr. Wilson. The dioxin will be destroyed through this 
process. The process has been tested and proven to work in 
California, and the Japanese Government also recently tested 
and accepted thermal desorption as an acceptable treatment for 
dioxin destruction.
    Mr. Faleomavaega. So you breathe the air. You are burning 
this 350 degrees centigrade?
    Mr. Wilson. This is different, sir, than the incineration 
of the soil. It is a technique by which the pile is capped and 
the air is extracted and treated, but there is no release of 
dioxin in the air.
    Mr. Faleomavaega. How deep do you dig in the soil?
    Mr. Wilson. The testing that will be carried out will 
determine the depth of soil that has to be removed. That is 
part of the process of the digging that will be done. The 
testing has shown that it is several meters deep in some 
places, but we are making sure that we capture the contaminated 
sediment and treat the contaminated sediment.
    Mr. Faleomavaega. When you say sediment, what if they are 
wetlands?
    Mr. Wilson. That is true, sir. There are two areas that are 
contaminated, one of them is wetlands, it is a lake. The lake 
will need to be drained, the sediment will need to be removed, 
and then the wetlands will be restored. There is also 
contamination of soil, and that will also be treated.
    The benefit of this technique is that it is the most 
environmentally safe way to deal with the dioxin. It removes 
the dioxin permanently, and it is the most effective way to 
reduce the threat in the future.
    Mr. Faleomavaega. What was the reason dioxin was used as 
part of this chemical substance that we conducted to defoliage 
operations in Vietnam? I know the reason we conducted this was 
to clear the forest so we could identify the enemy soldiers, 
which blows my mind. I just can't understand the logic of that.
    So in the process of conducting this deforestation, the 
substance ends up being exposed to human beings that are not 
trees or flowers, or whatever, but human beings were being 
exposed to this.
    Have there been any estimates by our Government on the 
number of soldiers, our own soldiers, who were exposed to Agent 
Orange?
    Mr. Palmer. None that I am familiar with, Mr. Chairman. 
Again, that is a question that I would need to refer to 
colleagues at the Department of Defense.
    Mr. Faleomavaega. Okay. I am just trying to get some 
connection here. I felt very encouraged. When is your next 
annual JAC meeting? Is it next year or are you having it this 
year again?
    Mr. Palmer. My understanding is that it should be next 
year. I don't know that a date has been scheduled. It is 
intended as an annual meeting. We recently had the 2010 
meeting, so my understanding is there will be another meeting 
in 2011, but I don't have a date for you, sir.
    Mr. Faleomavaega. I don't know if I am going to be 
reelected come November, but will I be invited if I do come 
back in November?
    Mr. Palmer. I will see what I can do.
    [The information referred to follows:]

  Written Response Received from Mr. Matthew Palmer to Question Asked 
       During the Hearing by the Honorable Eni F.H. Faleomavaega

    The General Counsel's Office at the Department of Veterans Affairs 
(VA) reports that veterans' benefits laws reflect the assumption that 
veterans may have been exposed to herbicides by means of inhalation, 
ingestion, or skin contact during service in areas where herbicides 
were applied and could have developed health problems due to such 
exposure. For purposes of entitlement to veterans' benefits, Congress 
has provided in 38 U.S.C. 1116(f) that any veteran who served in 
Vietnam between January 9, 1962, and May 7, 1975, will be presumed to 
have been exposed to herbicides during such service. The statute 
codified a longstanding VA policy of conceding exposure because VA 
concluded that it was not feasible to determine which veterans were 
actually exposed to herbicides in service, due to limitations of 
records documenting dates and locations of herbicide application and 
troop movements. For similar practical reasons, VA also concedes 
exposure for veterans who served in or near the Korean demilitarized 
zone (DMZ) during periods when herbicides are known to have been 
applied in that area.
    The Department of Defense reports that there were only two military 
units in Vietnam known to have come into actual contact with the 
tactical liquid herbicide, the men of Operation Ranch Hand 
(approximately 1,200) and the men in the U.S. Army Chemical Corps 
(approximately 2,900). These were the men who handled and sprayed Agent 
Orange, Agent Blue, and Agent White. The Department of Defense notes 
that the term ``tactical herbicide'' is very important because it 
distinguishes the commercial herbicides that were used by the Base 
Engineers from the tactical herbicides used by Operation Ranch Hand and 
Chemical Corps personnel. Agent Orange and the other tactical 
herbicides were not permitted to be sprayed over or on bases.

    Mr. Faleomavaega. Well, I do want to thank both of you 
gentlemen. I am going to have to fault my staff for not getting 
someone from the Department of Defense who basically is 
responsible for the conduct of this whole operation. So we are 
going to have to have another hearing then. It is going to be 
the fourth hearing now we are going to have on this issue.
    But I do want to thank the State Department and especially 
USAID for all that you are doing. But I am not letting you guys 
off now. I am still trying to dig in on this thing. And of 
course it isn't just that we expect that we are going to do the 
work. This is a partnership effort and I am sure our good 
friends--the leaders of Vietnam and the people there--are going 
to be very cooperative and see what we can do to work together 
on this. But I am going to have to work this with the 
Department of Defense. All you do is sign treaties, right? So 
the Department of Defense is the one that actually puts out the 
poison, right? It is not the State Department. It is the 
Department of Defense that does the bad work.
    Mr. Palmer. We do have some programs that are currently in 
place run through the authority of the Department of State 
aimed, again, at providing assistance to those with 
disabilities and remediating the dioxin. So in terms of the 
efforts that are underway now, that is led by the Department of 
State and USAID.
    Mr. Faleomavaega. In your meeting, did both of you attend 
the JAC meeting that was held in Hanoi?
    Mr. Wilson. Mr. Chairman, I was invited to the JAC meeting. 
I would like to point out that the JAC meeting, the U.S. Joint 
Advisory Committee meeting, is a meeting to talk about research 
cooperation in large part. USAID is leading the thermal 
desorption destruction effort. We plan to move forward as 
quickly as possible with that, and we will keep the JAC people 
informed as we move forward.
    Mr. Faleomavaega. And the Ford Foundation is still a 
participant in the series of meetings?
    What do you gentlemen see as something that the Congress 
can do to help in the effort?
    Mr. Palmer. Unless we have the resources necessary to carry 
out the programming in place, we will not be successful in 
these efforts. There is a budget process that results in a 
request to Congress. We stand behind the budget request, and we 
look forward to working with Congress on the administration's 
budget requests in future fiscal years.
    Mr. Faleomavaega. Dr. Wilson, you mentioned that you are 
going to need about $37 million to conduct a thermal 
desorption. You gave me some scientific description, but I have 
no idea what you meant by it. Can you elaborate a little 
further on that? How we are going to spend this $37 million?
    Mr. Wilson. The $37 million is to complete the destruction 
of the dioxin at the site. There are three components of the 
engineering plan. The first component is the oversight of the 
construction process. The second part is digging it up and 
hauling it and storing it in the stockpile. And the third 
component of the engineering work is actually working with a 
firm in California, TerraTherm, that will install the heating 
system and monitor and destroy the dioxin in the soil. So we 
expect to complete this exercise over 2 years, if we can move 
forward as quickly as possible.
    Mr. Faleomavaega. You know, the companies, Dow and 
Monsanto, were the primary makers of Agent Orange. And I was 
just wondering, has the government contacted them? I would 
think they know more about the substance because they were the 
ones that created it. Have you conducted any dialogue with 
these two companies that produced this Agent Orange?
    Mr. Wilson. Mr. Chairman, I am not aware of contact with 
those companies. I am aware that we have identified the firm 
that knows how to destroy dioxin. They have done it before, and 
we are going to use them.
    Mr. Faleomavaega. I forgot to ask for the record, what is 
the lifespan of dioxin?
    Mr. Wilson. I did not. I understand that the half life of 
dioxin is 100 years in the environment.
    Mr. Faleomavaega. What do you mean by half life? It lasts 
only 50 years?
    Mr. Wilson. No, sir, Mr. Chairman. It means that after 100 
years, half of the dioxin will be gone, so it takes a long 
time.
    Mr. Faleomavaega. My gosh, we will all be dead and it will 
still be there.
    Mr. Wilson. Sir, that is why we need to destroy the 
substance.
    Mr. Faleomavaega. Okay. And you are saying that there is no 
connection to the problems facing the Vietnamese people who end 
up disabled and handicapped and deformed?
    Mr. Palmer. No, Mr. Chairman. I am saying no such thing. 
The point that I was making is that the U.S. program is to 
provide assistance to people with disabilities without asking 
for evidence of cause or origin of the disability.
    Mr. Faleomavaega. Shouldn't we be asking for that to know 
specifically how we are spending our money?
    Mr. Palmer. Our goal in our programs is to provide 
humanitarian assistance to all of those in Vietnam who require 
assistance. In our view, it would be an unfair and undue burden 
to place on those suffering from disabilities to prove the 
cause, source, or origin of the disabilities that they struggle 
with.
    Mr. Faleomavaega. At the same time, have Vietnamese 
officials contacted by our Government shown us that there 
definitely is a connection between Agent Orange and these 
people ending up being deformed?
    Mr. Palmer. It is certainly the position of the Government 
of Vietnam, as understand it, that that is true.
    Mr. Faleomavaega. But it is not our position?
    Mr. Palmer. We do not believe that there is sufficient 
scientific evidence that would enable us to identify the cause 
or origin of an individual's disability.
    Mr. Faleomavaega. Even though we know that dioxin is one of 
the deadliest chemical substances ever made?
    Mr. Palmer. These are the sorts of questions that Jack is 
discussing scientist to scientist. I have not seen any 
evidence--we have not seen any evidence that would allow us to 
draw those kinds of one-for-one conclusions that might enable 
the kind of thing that you are talking about.
    So our goal is to provide assistance to people in Vietnam 
who need assistance, to those with disabilities who struggle 
with their disabilities and who place a burden on the 
Vietnamese social service system, which is under-resourced.
    So, through our programming, we do provide considerable 
assistance to disabled individuals in Vietnam. We do not ask 
them to provide any kind of evidence or documentation regarding 
how it is that they became disabled or what the cause or source 
of their disability is. That seems like an unreasonable burden 
to us, sir.
    Mr. Faleomavaega. The gentleman from Illinois.
    Mr. Manzullo. Thank you.
    Just a short question. Even if you knew or agreed with 
others that there is a causal link with Agent Orange and the 
disabilities, my understanding from your testimony is that you 
would simply continue in doing what you are doing now and 
treating everybody with disabilities, regardless of the cause. 
Would that be correct, Mr. Palmer?
    Mr. Palmer. Not everybody, Mr. Manzullo. As many as we can 
with the resources that we have available.
    So the fundamental underlying principle of our program 
efforts in Vietnam with respect to those, supporting those 
suffering from disabilities, is that we provide this assistance 
without a requirement that those benefiting from these programs 
provide evidence or documentation related to the cause of their 
disabilities. We have no such requirement. We think such a 
requirement would be unreasonable and scientifically 
unfeasible.
    Mr. Manzullo. So you bypass that causal requirement, and go 
right to the needs of the people.
    Mr. Palmer. We see no causal requirement, sir. The program 
is to provide assistance to people with disabilities.
    Mr. Manzullo. Okay. I think I understand.
    Thank you.
    Mr. Faleomavaega. Well, with all due respect, I don't 
understand this.
    How is it that we are able to recognize the seriousness of 
this chemical agent, Agent Orange? Of course, it took us many 
years until our veterans started screaming bloody hell after 
being exposed to dioxin and Agent Orange that their health was 
affected? And now we are giving them assistance. But by your 
statement, saying that our policy is not toward Agent Orange 
but to help anyone with disabilities, including those who were 
exposed to Agent Orange. Is this our policy right now?
    Mr. Palmer. Mr. Chairman, there are two issues that we see 
in front of us.
    One is the issue of health services, and the other is the 
issue of environmental remediation.
    Mr. Faleomavaega. Okay.
    Mr. Palmer. On the issue of environmental remediation, our 
goal is to identify dioxin hot spots, come up with a plan----
    Mr. Faleomavaega. Well, environmental remediation because 
of the dangers that dioxin poses to human beings exposed to it.
    Mr. Palmer. Certainly, in the hot spot in Danang, the 
levels of dioxin are above those that are generally accepted as 
international safety standards. So, yes, because of potential 
health risks, we do wish to complete the remediation of the 
dioxin hot spots in Danang.
    So we have on the one track that is related to 
environmental remediation and robust programming design to make 
progress in that area.
    In terms of the consequences that--the potential health 
consequences of Agent Orange, we understand that this is an 
important and sensitive issue for the Government of Vietnam. 
And we want to do what we can to provide assistance in this 
area.
    Since it is our position that there is no accepted 
scientific link, scientific method by which you can identify 
whether a particular individual is suffering from a birth 
defect as a consequence or result of dioxin exposure or Agent 
Orange, our policy is to provide assistance to those with 
disabilities in Vietnam without regard to cause. So these two 
things we see as mutually reinforcing, mutually supporting, and 
consistent with the needs and the goals of the Government of 
Vietnam.
    Mr. Faleomavaega. Well, mutually enforcing and mutually 
supporting, but mutually denying that the presence of dioxin 
may have impacted the lives and the health of these people who 
were exposed to Agent Orange.
    And I am not trying to argue with you, Mr. Palmer. I am 
just trying to figure exactly what the policy of our Government 
is.
    You are saying that we are helping anyone with 
disabilities. But you don't mention anything about dioxin. Is 
that because there has been no scientific research to prove 
that there is a connection between people with physical 
disabilities and exposure to dioxin?
    Mr. Palmer. No, Mr. Chairman.
    Again, that is not what I am saying.
    The point that I would like to make here is that our 
assistance efforts in Vietnam for those with disabilities do 
not ask for individuals with disabilities to prove or document 
the source of those disabilities.
    The science on whether or not dioxin itself is dangerous is 
separate and apart from this issue.
    The question before us is, if we wish to provide support 
and assistance to those in Vietnam who are suffering from 
disabilities, does it make sense to try through some system to 
identify those whose disabilities is a direct cause or 
consequence of Agent Orange? And we do not believe that there 
is a scientific way of doing that.
    Therefore, in our view, it is the most humanitarian 
approach to provide treatment to those who need treatment, to 
provide assistance to those who need assistance, without regard 
to cause and without asking them to document that which, in our 
view, cannot be documented.
    Mr. Faleomavaega. I know that our veterans organizations 
filed suit against these two chemical companies to find a 
causal connection between them who produced the substance, 
Agent Orange, with the dioxin contained in it. And it went 
through the Federal courts.
    And is this one reason for the refusal to acknowledge any 
connection of liability for these lawsuits. Even our own 
veterans have felt that their health conditions were due to 
exposure to Agent Orange. But now, the policy basically of our 
Government is that there is no such connection. And that is the 
same thing with the people and the Government of Vietnam.
    Mr. Palmer. Sir, it is not our position that Agent Orange 
and dioxin are not dangerous.
    It is our position that you cannot identify, on an 
individual case, the cause or source of that disability.
    Given that view, it is our policy to provide assistance to 
those who need assistance in Vietnam without regard to cause. 
We don't ask them to prove the source or the cause of the 
disability in question. We provide services to as many people 
as we can with the resources that we have.
    Mr. Faleomavaega. That has been a sensitive issue for all 
these years because we refuse to admit that, because of Agent 
Orange, this is the reason why we have abnormal and deformed 
children and people out of Vietnam. I mean, that seems to be 
the very bottom line why we continue our policy, to admit some 
sense of culpability, because we are the ones who sprayed the 
Agent Orange, not the Vietnamese.
    But would you support the idea of conducting scientific 
research as much as possible to see if there is a causal 
connection between dioxin and Agent Orange and the people who 
were exposed to the substance?
    Mr. Palmer. Mr. Chairman, in my view and in the view of the 
administration, the most humanitarian approach that we could 
take to dealing with this problem in Vietnam is to continue to 
provide assistance to people without requiring that they 
document the cause of their disability----
    Mr. Faleomavaega. But that doesn't answer my question.
    My point is that we spread this substance that impacted not 
only the flora and the fauna but also exposed a lot of human 
beings and caused a lot of problems. And my question is whether 
or not our Government would be willing to conduct scientific 
research just to see what the effects of dioxin are toward 
human beings if they are exposed. Would that be something that 
we ought to do at our next annual JAG meeting?
    Mr. Palmer. In my own view, sir, the best use of the 
resources that we have available is to provide assistance to 
those who need assistance.
    Mr. Faleomavaega. And let's just forget about dioxin?
    Mr. Palmer. No, sir. We think that it is very important to 
continue efforts to remediate the dioxin hot spots in Vietnam.
    Mr. Faleomavaega. And in our programs to remediate the 
presence of dioxin throughout Vietnam, what are we looking at 
in terms of how that will help the people who are already 
exposed to dioxin?
    Mr. Palmer. As part of our two-track approach to dealing 
both with the environmental and the health issues, the 
environmental goals are through direct remediation of hot spots 
to address health concerns. We have robust programs in place to 
provide assistance to people with disabilities in Vietnam. 
Those programs are meeting a very important need, and we intend 
to continue those programs.
    Mr. Faleomavaega. Are there any laboratories in other parts 
of the world that are researching the good things that come out 
of dioxin or the bad things that come out of it? Are there 
companies or countries that continue to study the effects of 
dioxin in that sense? Are there any scientific studies being 
conducted right now in labs and other countries, or do we just 
not even bother with it?
    Mr. Palmer. I don't know the answer to that, Mr. Chairman.
    I will see what I can find out, but it is a very broad 
question and I don't know the answer to that.
    [The information referred to follows:]
  Written Response Received from Mr. Matthew Palmer to Question Asked 
       During the Hearing by the Honorable Eni F.H. Faleomavaega
    The Department of Defense reports that no known scientific studies 
are currently being undertaken on the effects of dioxin, but extensive 
data has been compiled from past examinations of the herbicides in 
Agent Orange.

    Mr. Faleomavaega. Has there been any movement to maybe put 
a sense of convention to ban forevermore the use of Agent 
Orange which contains dioxin, just like we are in an effort to 
ban chemical and biological substances in warfare?
    Mr. Palmer. Again, Mr. Chairman, I will have to get back to 
you about whether there has been any discussions about that 
issue. None that I am familiar with.
    [The information referred to follows:]

  Written Response Received from Mr. Matthew Palmer to Question Asked 
       During the Hearing by the Honorable Eni F.H. Faleomavaega

    There is no need to take such a step. The Department of Defense 
reports that Agent Orange was last produced in 1969 and last used on 
April 15, 1970, when the Department of Defense terminated all uses of 
Agent Orange in Vietnam. In March 1972, all remaining stocks of Agent 
Orange in Vietnam were shipped to Johnston Island. All remaining 
``surplus'' stocks of Agent Orange in the Continental United States 
were placed in storage in 1970 at the Naval Construction Battalion 
Center, Gulfport, Mississippi. From May through August 1977, all stocks 
of Agent Orange in Mississippi and on Johnston Island were destroyed by 
at-sea incineration in the Central Pacific Ocean. Agent Orange was 
never registered by the United States Environmental Protection Agency 
for commercial use. It was a tactical herbicide that could be used only 
in military operations.

    Mr. Faleomavaega. Okay. Well, gentleman, I really 
appreciate your participation. You are definitely going to see 
my ugly face again if I come back in November, and we are going 
to continue the dialogue.
    And I realize that this is a very sensitive issue. But 
sometimes, sensitivities aside, all we are trying to do is see 
that we get some good answers and, hopefully, a better sense of 
direction on how we can resolve this problem, not only for the 
people of Vietnam but also our soldiers and many of our 
veterans who were exposed to the substance. And that is 
something that I am sure that in the coming months is going to 
continue to be in the mix of issues that we are going to be 
looking at.
    I notice the Department of Veterans Administration is also 
looking at the Agent Orange issue again. And for those who were 
also exposed to Post-Traumatic Syndrome situation with our 
veterans coming out of Iraq and Afghanistan, and of course, our 
soldiers that were also in Vietnam are still affected by this.
    So, again, I want to thank both of you gentlemen for coming 
this afternoon. We will definitely keep in touch.
    Thank you very much. We appreciate it.
    We are very honored and happy to have with us our next 
panel with Dr. Nguyen Thi Ngoc Phuong, medical doctor and 
currently the director general of Ngoc Tam Hospital in Ho Chi 
Minh City in Vietnam. As I mentioned earlier, he also is a 
former vice speaker of Vietnam's National Assembly and 
currently is a member of the U.S.-Vietnam dialogue group on 
Agent Orange/dioxin. Dr. Phuong has had a distinguished career 
as a medical doctor specializing in obstetrics and gynecology, 
and as a former professor. My gosh, just a list that goes on 
and on, having such a fantastic career and being a true hero as 
a medical doctor. And we are very happy to have her come.
    Also with us is Ms. Tran Thi Hoan, who is a second-
generation victim of Agent Orange. Her mother was exposed to 
Agent Orange during the Vietnam war. Hoan was born without legs 
and is missing her left hand. She is about to graduate from 
college in Ho Chi Minh City with a degree in information 
technology. She is a member of the Ho Chi Minh City chapter of 
the Vietnam Association of Victims of Agent Orange/Dioxin.
    I cannot say enough about how deeply grateful I am and 
appreciative of the efforts that our two witnesses have made to 
come all the way from Vietnam to share with us their testimony 
and their life experience as we address the problems of Agent 
Orange, what are some of the latest developments out of 
Vietnam, and at least some of the things that we had discussed 
earlier with Dr. Palmer and Dr. Wilson. I look forward to the 
testimony of Dr. Phuong and Ms. Hoan this afternoon, and I 
would like to ask Dr. Phuong to begin.
    And does she need a translator?
    The Interpreter. No. She can speak English herself, but I 
will just help her with the questions if she cannot hear your 
questions very well.
    Mr. Faleomavaega. Okay.
    Before we proceed, I am very honored to have along with us 
this afternoon a distinguished member of our subcommittee, Dr. 
Watson, a distinguished Member of Congress from the State of 
California and former Ambassador to the Federated States of 
Micronesia. And I would like to give her this opportunity, if 
she has an opening statement to share it with us.
    Ms. Watson. Thank you so much, Mr. Chairman.
    And I am always appreciative when you hold these important 
hearings to inquire about the recent developments in 
remediation and the efforts being made to address the 
continuing impact of dioxin, also known as Agent Orange, in 
Vietnam.
    We know that in between 1961 and 1971, as part of Operation 
Ranch Hand, 11 million to 12 million gallons of Agent Orange 
were sprayed onto south Vietnam. As a result of spraying of the 
agent, between 2.1 million and 4.8 million Vietnamese were 
directly exposed to Agent Orange and other herbicides during 
the Vietnamese war.
    While the damages and the effects of any war are 
devastating to locals and U.S. troops alike, I believe that now 
is the time to accurately assess the damage to the fullest 
extent possible and accept our responsibility in dealing with 
the aftermath of this act.
    Although Agent Orange has long been attached to uncertainty 
and controversy, I am pleased that we are seeing progress in 
our relationship with the Vietnamese Government and the 
nongovernmental organizations. The selfless efforts of the NGOs 
are to be commended. Included are the Ford Foundation, UNICEF, 
the United Nations Development Program, the Bill and Melinda 
Gates Foundation, as well as the Vietnamese NGOs, and the 
guests that are here on our panel today.
    Over the years, in speaking with the many Vietnamese 
veterans in my congressional district, exposure to Agent Orange 
has caused many health issues, such as but not limited to 
Hodgkin's disease, respiratory cancer in the lungs, bronchus, 
the larynx, and the trachea, as well as prostate cancer and 
type II diabetes. Many Vietnamese veterans in my district as 
well as around the country are still feeling the effects of 
Agent Orange some 40 years later.
    And, Mr. Chairman, before I close, I would like to 
sincerely thank you for your personal efforts championing this 
issue. We so appreciate you and your tenacity.
    And as you know, many agencies and nongovernment 
organizations and individuals have put much time and resources 
aiding the Vietnamese people to remedy the effects of the 
dioxin. So continued assistance is our humanitarian 
responsibility, and continued study and research is still vital 
and necessary, and continued remediation efforts is simply the 
right thing to do.
    And so I am so pleased to see your panelists today. Let me 
stop here so we can hear from them, and I yield back the 
balance of my time.
    [The prepared statement of Ms. Watson follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Faleomavaega. I thank the gentlelady from California 
for her most eloquent statement, and certainly a clear 
understanding of the issues and the challenges that are before 
us in dealing with this issue of Agent Orange. I appreciate 
deeply her support and always her commitment in serving as a 
member of this subcommittee, especially as our former 
Ambassador to the Federated States of Micronesia, where she was 
given a real deep sense of appreciation and understanding of 
people living in this part of the world, where she has also had 
an opportunity of visiting various countries throughout Asia.
    So her exposure could not have been a better and more 
fitting occasion for her to serve on this subcommittee where 
she can at least have a sense of understanding and appreciating 
when people coming from this part of the world, she can feel 
what it means to be affected and to be exposed or to be 
involved in this region.
    So I thank the gentlelady, and I deeply appreciate her 
presence.
    So Dr. Phuong, please proceed with your testimony.

 STATEMENT OF NGUYEN THI NGOC PHUONG, M.D., DIRECTOR GENERAL, 
   NGOC TAM HOSPITAL, HO CHI MINH CITY, VIETNAM (FORMER VICE 
 SPEAKER OF THE VIETNAM NATIONAL ASSEMBLY; PRESENTLY MEMBER OF 
    THE U.S.-VIETNAM DIALOGUE GROUP ON AGENT ORANGE/DIOXIN)

    Dr. Phuong. Honorable Chairman Faleomavaega, and Congress 
Members, ladies and gentlemen. First, I would like to extend my 
sincere thanks to Chairman Faleomavaega and the members of the 
Subcommittee on Asia, the Pacific<greek-l>, deg. and the Global 
Environment for organizing this hearing on ``Agent Orange in 
Vietnam: Recent Developments in Remediation.''
    I am pleased to have the opportunity to once again talk 
about the urgent needs of the victims of Agent Orange in 
Vietnam and what we can do together to help them.
    I am testifying today as a vice president of the only 
organization that represents the millions of victims of Agent 
Orange in Vietnam. The Vietnamese Association of Victims of 
Agent Orange/dioxin, or VAVA. Our association was founded in 
2003 by a handful of victims of Agent Orange, many of whom have 
now died from their Agent Orange-related illnesses.
    From 2003 until today, VAVA has grown to over 300,000 
members with chapters in 55 provinces and 326 districts. We 
advocate for the rights of those affected by Agent Orange and 
dioxin in Vietnam and internationally, and we provide direct 
aid and health services by and for three generations of those 
harmed by Agent Orange, dioxin and other agents.
    I am a physician and scientist who worked for many years at 
a big obstetrics-gynecology hospital in Ho Chi Minh City, the 
Tu Du Hospital, where I witnessed the suffering of the families 
having babies born with deformities related to Agent Orange and 
dioxin and other toxic chemicals exposure. I am now vice 
president of Ho Chi Minh City's Society for Reproductive 
Medicine and standing vice president of the Association of 
Obstetrician and Gynecologists with my colleagues in Vietnam as 
well as in the other countries, including in the USA.
    I have conducted many studies on the long-term effects of 
dioxin contained in Agent Orange and in other agents sprayed 
over the southern part of Vietnam during wartime and the human 
health and human reproduction. The result of those numerous 
studies confirm that about 4.8 million, from 2.1 million to 4.8 
million Vietnamese people were directly exposed to Agent 
Orange/dioxin during the wartime, with more than 3 million 
suffering from illnesses. And among those 3 million, there are 
about 150,000 visible children now in Vietnam alive.
    Many million more Vietnamese people have been indirectly 
exposed through the breast milk from the exposed mother or 
through the food chain when living around the dioxin-
contaminated areas. Where the U.S. Air Force had stored barrels 
of Agent Orange that we call now the hot spots, the land, soil, 
sediment, fish, fowl in and around those hot spots still 
contain dioxin at a very high level, from a few hundred to 1 
million parts per trillion.
    Dioxin can cause a wide range of illnesses, including 
cancerous and other diseases and birth defects. More 
tragically, these harmful effects can be transmitted to many 
generations through the damage to DNA molecules and genes 
caused by dioxin once it enters into the cells of the exposed 
people.
    Based on the evidence of the harmful effects of the use of 
Agent Orange and other toxic chemicals during wartime in 
Vietnam, the International Peoples' Tribunal of Conscience in 
Support of the Vietnamese Victims of Agent Orange/dioxin, 
convened on May 15 and 16 of 2009 in Paris, concluded that all 
victims of Agent Orange and dioxin should be rightfully 
compensated.
    The Vietnamese people, similar to the American Vietnam 
veterans, are subject to all the diseases and birth defects 
recognized by the American Veterans Administration, the 
Institutes of Medicine and the U.S. Government. More than that, 
in Vietnam, we have identified many additional health problems 
due to repeated exposure to dioxin at a greater scale and 
during a very long period of time.
    The U.S. Veterans won a legislative victory for 
compensation for exposure to Agent Orange and received about 
$1.5 billion per year in benefits related to the use of this 
agent. However, their children and grandchildren, who are being 
born with dioxin-related birth defects, do not yet receive any 
assistance. We support the U.S. veterans' efforts to gain full 
compensation and medical treatment for their children and 
grandchildren.
    We are also aware that some of the more than 1 million 
people in the Vietnamese-American community in the United 
States suffer from Agent Orange and dioxin-related conditions 
and are in need of health care. We hope that this will be 
provided to them.
    About the victims in Vietnam. The Vietnamese Government 
provides a monthly stipend of about $17 U.S. dollars for each 
of the 300,000 victims. This totals up to $50 million 
<greek-l>U.S. dollars  deg.per year. VAVA has raised money, 
about $20 million USA per year, to support 1 million families 
of victims who are facing lives of extreme hardship and 
poverty. VAVA is also conducting a survey to identify others 
affected nationwide.
    The Vietnam-U.S. Dialogue Group, of which I am a member, 
supported by the Ford Foundation, along with UNICEF and UNDP, 
has done a temporary containment of one part of Danang Airport, 
one part, and that part is the dioxin contaminated. And with 
the financial assistance from Bill and Melinda Gates Foundation 
and the philanthropy, one laboratory for dioxin analysis is 
being built in Hanoi.
    The Dialogue Group has just released a plan of action for 
the 10 coming years with a proposed $300 million <greek-l>U.S. 
dollars  deg.for cleaning dioxin-contaminated soil and 
restoring damaged ecosystems and expanding services to people 
with disabilities linked to dioxin and to people with other 
forms of disabilities. The amount is modest as compared with 
what the victims need, but the effort of the Dialogue Group is 
well appreciated in Vietnam.
    Beginning in 2002, the U.S. Congress and government began 
to recognize the severity of the problem and to provide some 
monetary assistance to Vietnam to remediate the hot spots and 
help the victims in Danang. The U.S. Congress has allocated $9 
million over 4 years for hot spot remediation and health 
programs. So far, $2 million has been allocated to three U.S. 
nongovernmental organizations for programs to support and care 
for those with disabilities in Danang.
    For a comparison, according to some experts, only the 
cleanup and remediation just in one area of high concentration 
is estimated to be $60 million. In Vietnam today, there are 
still 28 hot spots and many million victims of Agent Orange and 
dioxin.
    The first generation of victims are suffering and dying 
every day from cancers and other diseases related to Agent 
Orange/dioxin exposures. They cannot wait any longer for the 
basic treatment and care that will ease their agony. The 
youngest and most fragile victims are born with the most tragic 
birth defects. They cannot wait any longer for justice.
    Mr. Chairman, ladies and gentlemen, I would like to 
respectfully suggest that you and your colleagues in the 
Congress continue the work begun by the U.S. veterans groups 
and other American nongovernmental organizations to decisively 
heal the wounds of war for Vietnam's more than 3 million Agent 
Orange/dioxin victims.
    I propose that Congress agree to provide resources from 
comprehensive medical services, chronic care, rehabilitation, 
and educational services and facilities for Agent Orange/dioxin 
victims; provide assistance for impoverished families and 
caretakers of Agent Orange/dioxin victims; provide the above 
resources by funding Vietnamese nongovernmental organizations, 
including the Vietnam Association for Victims of Agent Orange/
dioxin, to engage in these activities; provide funding to 
remediate those areas in Vietnam that continue to contain high 
levels of dioxin; to stop as soon as possible exposure for 
people living around those hot spots so we can prevent birth 
defects and diseases related to dioxin exposure for the future 
generations; and, require the chemical companies who 
manufactured Agent Orange to recognize their responsibility and 
assist the victims.
    I hope that this third hearing convened by Mr. Chairman and 
the Subcommittee on Asia, the Pacific<greek-l>, deg. and the 
Global Environment will build on the testimony in the previous 
hearings and result in action to address the agony and the 
suffering the victims of Agent Orange and dioxin are 
experiencing daily. We look forward to your understanding and 
empathy. The pain of our victims is too great. Timely and 
effective actions taken by this Congress to help victims of 
Agent Orange and dioxin in Vietnam are the final step in 
healing the wounds of war as our two peoples in two countries 
continue to build a relationship of friendship and peace. Thank 
you.
    [The prepared statement of Dr. Phuong follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Mr. Faleomavaega. Thank you, Dr. Phuong.
    Ms. Hoan, for her testimony.

      STATEMENT OF MS. TRAN THI HOAN, AGENT ORANGE VICTIM

    Ms. Hoan. First, I want to thank Chairman Faleomavaega and 
Member Watson and everybody spending time to come here.
    The subject of this hearing is to understand the needs of 
the victims of Agent Orange. I would like to contribute to this 
discussion because I am one of those victims. I would like to 
share my personal experience with you today. But my experience 
is not unique. I am one of hundreds of thousands of young 
people whose lives have been marked by our parents' or 
grandparents' exposure to Agent Orange.
    I was born as you see me, without two legs and missing a 
hand. I was born on December 16,1986, into a farming family in 
Duc Linh district of Binh Thuan province in central Vietnam. My 
mother was exposed to Agent Orange earlier when she was farming 
her plot of land, which turned out to have Agent Orange 
canisters buried in the soil. My older sisters and my older 
brother were born without any problems, and my younger brother 
was stillborn in 1988, due to an abdominal wall defect.
    When I was young, it was difficult for me to play with the 
other children or attend school because at that time, people 
didn't understand about Agent Orange. They thought my condition 
was a result of bad karma in my family.
    When I was 8 years old, I met a local journalist who 
suggested I go to Tu Do Hospital in Ho Chi Minh City so that I 
could get better care and an education. With my parents' 
encouragement, I moved to Peace Village II, the Agent Orange 
center at Tu Du Hospital.
    Since then, I have been living in Peace Village II. I share 
the ward with 60 children suffering from the effects of Agent 
Orange. Let me tell you about some of my friends who share my 
home. They suffer from spinal bifida, congenital limb 
deformity, multijoint stiffness, different types of syndromes, 
microcephaly, hydrocephalus, cerebral palsy, and others.
    I also know others, such as Pham Thi Thuy Dung, who is 16 
years old, and Pham Thi Linh Nhi, her younger sister, 14, and 
their sufferings, but I don't know how they are classified. She 
cannot speak. Dung was born in Binh Thuan province; 48 inches 
in height, 53 pounds in weight, bedridden, she cannot speak. 
She gets sick when there is a change in temperature. Linh Nhi 
is 64 pounds and 49 inches tall, she sleeps most of the time 
and suffers from nutritional deficiencies. Little Pham Thi Thuy 
Linh, born 1994 without arms, now lives in Peace Village II. 
She writes with her toes. Her grandpa was an ARVN soldier who 
participated in the spraying of Agent Orange.
    At Peace Village II, we all live together, and those of us 
who are able help those who are sicker.
    Some of my friends have died from their birth defects, like 
Nguyen Thi Hanh, born in 1997, who had multijoint stiffness, 
and died in 2007. Little Huynh Thurong Hoai, born in 1996 in Cu 
Chi without a left arm and without legs, had a heart defect and 
suffered from epilepsy and multideformity and died in 1999 from 
total heart muscle failure. Victims of Agent Orange die every 
day, and they need immediate attention and help.
    The staff of the Peace Village II is loving and kind and 
does their best to create a warm atmosphere for us. There are 
many other children who could benefit from this treatment, but 
there is not enough room for all those children who need this 
kind of care. Some of the residents, like me, can go to school 
and work, but others will lie in their beds until they 
eventually die. All over Vietnam there are hundreds of 
thousands of children like Dung and Hanh who lie at home 
without access to the services available to those at Peace 
Village II.
    I don't know what would have happened to me if I hadn't 
been able to come to Peace Village II. Without legs and a hand, 
it would be difficult to farm. And without education, other 
jobs would be out of reach. But I was able to go through 
school. I am now about to graduate from the Ho Chi Minh City 
University of Foreign Languages and Information Technology with 
a certificate in computer science. In fact, I took a week away 
from preparing for final exams to come and testify here today.
    I am considering continuing my education. I had dreamed 
about being a doctor, but I don't know if my physical condition 
will allow me to do this. But I am confident that I will be 
able to find a way to make a contribution to my society and to 
continue to help other Agent Orange victims.
    I am one of the lucky ones. While I am missing limbs, my 
mental functioning is fine. No one knows what other effects of 
the dioxin/Agent Orange may develop in my body, but many 
babies, children, and young people my age live lives of quiet 
agony. They are trapped in bodies that do not work. Their brain 
remains in infancy even as their bodies grow. Most of these 
children have much fewer medical and rehabilitative services 
than me. Most live with their families in farming communities 
like the one I grew up in. Some of their parents, the 
generation directly exposed to Agent Orange, are also sick with 
cancer. Whatever their health, most parents of seriously 
disabled victims are poor. Needing to provide constant care for 
their children, they cannot work. Many must spend money they 
don't have each month for medicines. Some live is substandard 
housing.
    Our Government does provide assistance to the most 
seriously ill victims, but our country is still developing, and 
the system doesn't meet all the needs. The organization that 
represents individuals, the Vietnam Association for Victims of 
Agent Orange/dioxin, also assists the victims. VAVA, as it is 
called, is building daycare centers for young victims, 
rehabilitation centers, and providing medical care and social 
services. I am part of the new generation of VAVA members 
around the country.
    What do the victims need and want? We want those 
responsible for the terrible consequences of Agent Orange to 
hear our pain and then to respond as members of the human 
family. The chemical manufacturers who made the Agent Orange 
and the U.S. Government who sprayed and dumped it in our 
country should respond to this human tragedy by doing the right 
thing. This is a matter of justice and humanity.
    Building more centers like Peace Village II in many regions 
of Vietnam is necessary, particularly for those with severe 
birth defects.
    For those who are somewhat better off, daycare centers, 
vocational and educational rehabilitation centers, and aid to 
families to facilitate home care are crucial. Medical care 
specifically targeted to the conditions we face, as well as 
prosthetics and other services, is needed.
    For our parents and grandparents exposed during the war, 
treatment for their cancers and all the diseases is a 
responsibility.
    A comprehensive approach will be required to meet these 
human health needs. Going along with this is the requirement 
that the toxic hot spots where dioxin remains in the land and 
water be cleaned up.
    Agent Orange victims also want a say in how services for us 
are planned and delivered. That is why our organization, VAVA, 
should be central to the development of all assistance 
programs.
    Many youth like me were born after the war. Like other 
young people, we dream of having a family, getting a job, and 
having a peaceful life. But the aftermath of the war destroys 
the dreams of many young Agent Orange victims in Vietnam. In 
this 15th year of relations between Vietnam and the U.S., we 
ask the U.S. people and their representatives to reach out your 
hands in friendship and understanding.
    I am aware that the children and grandchildren of U.S. 
veterans exposed to Agent Orange are suffering like us. We wish 
to share common experiences with them. We hope that they 
receive the medical care and assistance they need.
    There is a Vietnamese saying, ``Ngay mai troi lai sang,'' 
something like the American popular song, ``The sun will come 
up tomorrow.''
    I hope that this hearing will be testament to the power of 
hope, of dreams, and of assuring justice. Thank you.
    [The prepared statement of Ms. Hoan follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Faleomavaega. Thank you, Dr. Phuong and Ms. Hoan, for 
your statements.
    Without objection, the statements of all our witnesses this 
afternoon will be made part of the record and any other 
extraneous materials they want will be added to the record as 
well.
    I would like to turn the time now to Dr. Watson for her 
line of questions.
    Ms. Watson. I want to thank our two witnesses for coming 
here and giving us an update. My colleague and I almost 10 
years ago went over to Vietnam, and we looked at some of the 
victims and their rehabilitation programs.
    However, many years later, and maybe Dr. Phuong can address 
this, have you done the long-term studies as to what 
generational effects there are? Because we are looking at 40 
years later. And what are you seeing now among the new births?
    Dr. Phuong. Ms. Congresswoman, yes, we do have many 
studies, but the long-term follow up we do not have. But every 
year, almost every year, we have a cross-sectional study on 
villages in sprayed areas, so that now we follow, not very 
continuously, but every year, once every year.
    So we found out in, for example, Phnom Tamao, where the 
spread was very heavy during wartime, and the third generation 
has the same as the second generation; they also have birth 
defects, they also have cancers very young, and many diseases 
like their parents.
    Ms. Watson. Are you seeing a reduction in these effects? Or 
just generation after generation, when babies are born, you see 
the same defects as you did in the first generation? I am 
wondering if the spray, whatever the antibodies are, if they 
wear down after a period of time. Are you still seeing the 
defects as strong as they were in the first generation?
    Dr. Phuong. I have many patients where the first generation 
is okay, no birth defects, but the second generation, they have 
cancer. But the third generation, the father and mother look 
outside normal, but the father later has cancer. But now, at 
the time they have the child, he is still normal, but the child 
has birth defects, it is invisible, and the second child is 
also invisible and the third child is also invisible. The 
second generation, no visibilities. But the third generation, 
there are many.
    Ms. Watson. Well, you are seeing a pattern, sometimes it 
skips over a generation, but it is picked up.
    Dr. Phuong. Yes.
    Ms. Watson. The studies that you have done, could you share 
that information with us?
    Dr. Phuong. Yes. It was published in many scientific 
journals, like the ``Chemosphere'' in the U.K. and in the 
journal of the APAA in the USA.
    Ms. Watson. Let me now speak to the chair. I just 
appreciate you following up the way you have done. If this 
information is available, then if there is a subsequent 
hearing, because I do know you have a second panel----
    Mr. Faleomavaega. No. Will the gentlelady yield?
    Ms. Watson. Please.
    Mr. Faleomavaega. Because I think your line of questions 
fits right into the most serious dialogue that I had with our 
friends from the State Department and USAID. Unless I am deaf 
or something, they suggested that there is no causal 
relationship between dioxin and Agent Orange and the people of 
Vietnam who were exposed it. And what I have come to understand 
now, from the testimony of Mr. Palmer and Dr. Wilson, is that 
our Government has done no scientific study on this issue.
    Would you believe this? If there was a study, we don't 
accept it to say that there is a causal relationship between 
the deformities and abnormalities of the victims, the people 
who were exposed to Agent Orange and dioxin. And I was 
wondering if Dr. Phuong could help us along this line about the 
scientific studies, at least to her understanding, I was a 
little surprised to learn this from our friends from the 
administration that we don't admit the connection between Agent 
Orange and the causes of what has happened to being exposed to 
it.
    Ms. Watson. Mr. Chairman, if you will yield?
    Mr. Faleomavaega. Absolutely.
    Ms. Watson. Dr. Phuong, you mentioned that a lot of this 
information has appeared in some of the medical journals?
    Dr. Phuong. Yes.
    Ms. Watson. Would you expand on that, give us a sense of 
time when they appeared. And after you finish, I would like to 
suggest that we get a copy of her raw data.
    Mr. Faleomavaega. Without objection. All materials from Dr. 
Phuong's good office will be made part of the record on 
anything proven in terms of any scientific studies, medical 
journals, experiments that were done on a causal connection 
between birth defects and exposure to Agent Orange.
    Dr. Phuong. Mr. Chairman and Mrs. Watson, I would like to 
provide you one detail, one more detail, that the American 
Public Health Association has about 14,000 members, and they 
are very informed in epidemiology and in its 2007 policy 
statement on Agent Orange recognized the responsibility of the 
U.S. Government and chemical companies to alleviate the harm 
caused by the use of Agent Orange in recommending that the U.S. 
Government and both chemical companies provide resources for 
the disabled, provide medical nursing services, et cetera. So 
that means that they accept the connection, the link between 
Agent Orange, dioxin, and the disability and the illnesses. So 
that they recommend U.S. Government and the chemical companies 
because all of them are at the top of epidemiologists. I think 
that you do know that. So I think it is proof that now we can 
rely on, I think.
    Ms. Watson. Mr. Chairman, I think in light of Dr. Phuong's 
testimony, we might want to call some of them in. We can have a 
subsequent hearing with the data and the epidemiology studies, 
what are we doing? And since they have made the connection 
between Agent Orange and dioxin and it has had a negative 
effect, we need to query that.
    I chair a subcommittee on procurement. And since it is the 
responsibility of our Government to follow up, what are we 
doing? We could hold a joint hearing, Mr. Chair, and raise 
these questions with those who have received the information.
    Mr. Faleomavaega. If the gentlelady will yield. I would be 
more than delighted to have a joint hearing with your 
subcommittee to follow up on this issue because I have now come 
to realize that there is resistance from the administration and 
from our Government to have any sense of admission that there 
is a causal connection between Agent Orange and its effect, 
especially in the substance of dioxin. That is the reason why 
we are making this inquiry of why the sensitivity because for 
many years our own veterans filed lawsuits against Monsanto and 
Dow Jones chemical companies because they were the ones 
responsible for manufacturing and producing Agent Orange. And I 
believe that is where it gets a little fuzzy in terms of our 
courts also came up with decisions that doesn't seem to 
really--well, you know what lawyers can do with things like 
this, they make you go round and round and round and still with 
no clear answer.
    But I would be delighted to do a joint hearing with the 
gentlelady.
    Ms. Watson. And I have one more question, if I may, of Ms. 
Hoan.
    You have overcome a lot of the disabilities or handicaps. I 
must commend you on your speaking of English. I could 
understand everything that you were saying. So that shows that 
you are someone who has gotten in there and you are fighting. 
It is my hope that you will further continue, if possible, and 
aid those who are suffering from the results of Agent Orange.
    What services would you suggest or would you like to see us 
provide to accomplish this goal to help people live, but to be 
sure we will have an impact on generations yet unborn? So can 
you just tell us what you see is missing that we might supply?
    Mr. Faleomavaega. If it makes it easier for Ms. Hoan, she 
can speak in Vietnamese and then you translate in English.
    Ms. Hoan. I will try to speak by English.
    Mr. Faleomavaega. All right. Whatever is easier.
    Ms. Hoan. In my testimony, I think we need more centers 
like Peace Village II. We need vocational and educational 
rehabilitation centers, and facilitate home care and medical 
care and prosthetics because Peace Village has a lot of 
children that are missing a hand or a leg, so they need 
prosthetics to go to school or to do something they want.
    And with some other children, they need more centers to 
take care of medical to help their health. And we also need 
education for the victims who still have normal brain like me. 
We need education for in the future we can get a job to earn 
money for themselves.
    Mr. Faleomavaega. Dr. Phuong, as I had mentioned earlier, I 
want to get to the bottom line on the issues that we are 
confronted with in terms of scientific studies that have been 
conducted. I would welcome your assistance in providing for the 
record any scientific studies or experiments that you are aware 
of to prove that there is definitely a relationship between 
what happened to Ms. Hoan as a result of the Agent Orange. 
Because it seems that there is still resistance on the part of 
the administration to admit the connection. And I believe this 
is one of the reasons why over the years the sensitivity of the 
case is to the extent that we just don't want to admit 
liability or gullibility--or whatever you want to call it--to 
what has happened.
    And I might also add that this is just as much a tremendous 
challenge even in our own country of providing proper 
assistance to people with disabilities. It is a big issue even 
here in America, that we have been totally inadequate in 
providing assistance, even as you said, prosthetics and the 
proper facilities for training, for education, for all of these 
areas, even facilities to accommodate the needs of citizens 
with disabilities even to go through a door or to go up a 
stairway, a situation that most of us who are normal take for 
granted. Even having wheelchairs, just to be mobile, to be able 
to more self-sufficient.
    I really would like for you to share with us a little more. 
Is there any question in your mind about what dioxin and Agent 
Orange have done to your people? Because I hear our friends 
downtown saying we are there to help people with disabilities 
regardless. But they never say they will include those 
suffering from effects of Agent Orange. And I would like your 
response to that.
    Dr. Phuong. Mr. Chairman, I am very pleased to be able to 
help a little bit about proving the link between, so after 
going home, I will send you all my papers published in the U.K. 
or in the U.S. concerning the dioxin and the health effects.
    Mr. Faleomavaega. Could you please do that? I would deeply 
appreciate it. Like I said, this is the third hearing that we 
have held. And the purpose of the hearing is to establish a 
firm record, establish a record with sufficient data, 
information and evidence to show that there is not only a 
connection, but the question following then, what are we doing 
about it in giving assistance to your people? This is what we 
are trying to do.
    The contradiction of this issue is the fact that my own 
Government, after years and years of resistance about our 
veterans or soldiers who were exposed--presumably exposed to 
Agent Orange, is that we now have established a policy for any 
soldier like myself who served in Vietnam during that 10-year 
period. The Veterans Administration says there may be a 
connection between our illnesses and exposure to Agent Orange 
while we were in Vietnam, and yet we don't have to prove there 
is a connection. So this is where I am getting somewhat of a 
very interesting policy being formulated by my Government, not 
only because of our bilateral relationship, but internally, for 
the treatment of our own soldiers where we have had to take a 
lawsuit, had to file a lawsuit on this matter.
    Ms. Watson. Will the chairman yield?
    Mr. Faleomavaega. Please.
    Ms. Watson. I think our new administration would be more 
sensitive to what we are proposing and the relationship between 
Agent Orange and dioxin and the generational defects as a 
result. And so I think we ought to make a real effort, after we 
have our second hearing with the--I think we ought to have the 
chemical companies sitting at that table----
    Mr. Faleomavaega. If the gentlelady will yield?
    Ms. Watson. I will yield.
    Mr. Faleomavaega. I would love to have a joint hearing with 
you sometime in September to bring people from DOD, the medical 
people, some of our veterans who have been actively engaged in 
this issue. This is just an internal matter, Dr. Phuong, that 
we have to do, but please bear with us in doing this. 
Absolutely, I would love to do this.
    But I do want to say to Ms. Hoan, I sincerely hope that the 
sun will come up tomorrow.
    Dr. Phuong, you mentioned that there was a conference held 
in Paris. Was this a medical conference discussing the issue of 
Agent Orange? You had mentioned this in your testimony. Can you 
elaborate a little further on that?
    Dr. Phuong. Mr. Chairman, you are asking about the 
comprehensive medical care?
    Mr. Faleomavaega. Yes.
    Dr. Phuong. Yes. We have a lot of disabled, so that we need 
to set up many centers. We have Peace Village. Peace Village is 
in Vietnam. Each of them take care of only 50 or 60, so that we 
cannot take care of as many as possible because we have too 
many victims, disabled children. So that we wish to have more 
centers for the disabled children due to Agent Orange.
    And then we would like to have a network of the people who 
can do the rehabilitation, not only for the movement of the 
limbs, but also for speech and for the other sensory organs, 
and also for the mental retardation. And then we wish to have 
enough facilities for making diagnosis of birth defects very 
early during pregnancy. And also, we wish to have enough 
facilities to detect very early the cancers, many kind of 
cancers.
    In my country, in the big cities, in Hanoi, in Ho Chi Minh 
City and Da Nang and some more cities we can have such a 
facility. But in district or in the remote areas where the 
dioxin is still there, we cannot have a network reaching down 
to the district or community. So we wish to have more 
facilities for detect cancers, for detect birth defects at a 
very early stage.
    Mr. Faleomavaega. Dr. Phuong and Ms. Hoan, again, I cannot 
thank you both enough for traveling all the way from Vietnam to 
come and testify before this subcommittee. Please rest assured 
that our keen interest is not lessened in any way, and that I 
am just very happy that the gentlelady from California and I 
are going to continue to do the work.
    The situation now is more of an internal matter so that we 
get a better settlement on this issue with our own 
administration and our own leaders to see what we need to do 
from our side. Because I honestly believe that the mindset of 
how we are looking at this issue for all these years has not 
been positive. But I do believe that if we continue pushing the 
matter and see that the proper facts and data and information 
on this matter will be such that not only will be as a matter 
to better inform the American public, but also our colleagues 
here in the Congress.
    So with that, I do want to sincerely thank you both for 
being here. I wish you Godspeed on your travels back to 
Vietnam. The gentlelady, unfortunately, decided to do better 
things than being a Member of Congress. She has decided to move 
on in her brilliant career and she will not be with us because 
she has decided to retire. But like I said, Dr. Phuong, 
assuming that I get reelected in November, you will see my ugly 
face again pushing this issue, all right?
    So thank you both. The hearing is adjourned.
    Dr. Phuong. Mr. Chairman, Hoan told me before the hearing 
that she wishes to have a photo with you and Mrs. Watson. Is it 
possible, Mr. Chairman?
    Mr. Faleomavaega. Better yet, come to my office. We will 
have a photo here, and then we will go to my office. I am going 
to cook a pig there for you.
    The hearing is adjourned.
    [Whereupon, at 4:40 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               <greek-l>Minutes deg.

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Ratner FTR deg.__

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Cohn FTR deg.
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
